CERTIFICATE OF WORD COUNT
No. TBD
Jessica Arong O'Brien,
Petitioner,
v.
United States of America,
Respondent.

STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
.......... 1. That I am over the age of 18 years and am not a party to this action: I am an employee ofthe Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the Jessica Arong O'Brien
Petition for Writ of Certiorari contains 8140 words, including the parts of the brief that are
required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas'DeDeus
November 25, 2020

SCP Tracking: Arong O'Brien-1131 S. Park Terrace-Cover White

